                                       Fresno




        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Community Action Partnership of
San Bernardino County –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-17                               March 2013
                                 Department of Energy
                                    Washington, DC 20585

                                         March 28, 2013

MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Community Action
                         Partnership of San Bernardino County − Weatherization Assistance
                         Program Funds Provided by the American Recovery and Reinvestment
                         Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Community Action Partnership
of San Bernardino County's (Agency) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Weatherization Assistance Program (Weatherization
Program). The Office of Inspector General (OIG) contracted with an independent certified
public accounting firm, Lopez and Company, LLP, to express an opinion on the Agency's
compliance with Federal and State laws, regulations and program guidelines applicable to the
Weatherization Program. The Agency is a sub-recipient of the Department of Energy's
(Department) Recovery Act Weatherization Program funding for the State of California.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of California received $186 million in
Recovery Act Weatherization Program funding, of which $7.7 million was allocated to the
Agency to weatherize 1,931 homes. The State of California Department of Community Services
and Development (State) was responsible for administering Weatherization Program grants,
including funds provided to the Agency.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that except for the weaknesses described in its
report, the Agency complied in all material respects with the requirements and guidelines relative
to the Weatherization Program for the period of July 1, 2009 through May 31, 2011. However,
the examination found that the Agency:
                                                2


       Requested inaccurate reimbursements from the State for weatherization work. During
        their review, Lopez and Company, LLP, noted the Agency consistently billed labor
        hours for only one of the two crewmembers on a weatherization team. Each team
        recorded the number of hours the team (as a whole) spent on the job on a single
        timesheet, rather than the total number of labor hours incurred by individual team
        members. The review of four completed homes indicated the under-billing totaled
        $1,760.

       Performed weatherization work that did not meet the standards established by the
        Department and the State. As part of their review, Lopez and Company, LLP,
        accompanied the State on its re-inspection of five completed units. The State inspector
        reported that four of the units failed re-inspection, even though all of these units had
        previously passed a final inspection performed by the Agency.

       Used 13 of the 15 vehicles it purchased with Recovery Act Weatherization Program
        funds in support of other Federally funded or non-Federally funded weatherization
        activities instead of Recovery Act related weatherization activities, as required. As a
        result of this finding, Lopez and Company, LLP, questioned $393,300 (purchase price of
        the 13 vehicles).

       Did not maintain documented justification for two sole source procurements, as
        required. The Agency informed Lopez and Company, LLP, that based on prior
        experience the vendors selected through the two sole source procurements were the only
        providers of those particular services in the areas where work was required.

The report makes recommendations to the Agency to improve the administration of its
Weatherization Program. The Agency provided comments that expressed concurrence with the
recommendations and provided planned and ongoing actions to address the issues identified.
While these comments and planned corrective actions are responsive to the recommendations,
the Department needs to ensure the planned actions are completed.

RECOMMENDATIONS

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Require the State of California to improve administration of Weatherization Program
       funds by ensuring the Agency implements the recommendations outlined in the report.

We also recommend the Contracting Officer for the State of California Weatherization
Assistance Grant:

    2. Resolve identified questioned costs.
                                                3


MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Department agreed with the OIG's recommendations and with the recommendations
addressed to the Agency in the report. In addition, the Department stated that it would work with
the State to address the OIG's recommendations, improve the administration of its
Weatherization Program, and ensure that all corrective actions stated in the report are
implemented. The Department also noted that it would work with the State to verify the
adequacy of the allocation method developed for vehicle use on non-Federally funded programs
and resolve the associated questioned costs. Additionally, the Department reported that it would
validate compliance with the recommendations during an upcoming site visit, which will be
conducted before June 2013. The Department's comments are included in their entirety in
Attachment 2.

The State concurred with the recommendations of the OIG and the corrective actions taken or
planned by the Agency. The State also indicated that it will monitor the Agency's progress to
ensure corrective actions are completed in a timely manner. The State's comments are included
in their entirety in Attachment 3.

The comments provided by the Department and the State were responsive to the
recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Agency's policies and procedures and reviewing applicable program documentation. The
procedures also included an analysis of inspection results, records of corrective actions, and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was conducted to test the appropriateness of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated December 12, 2012, and the conclusions expressed in
the report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                       Attachment 1




                       EXAMINATION REPORT ON COMPLIANCE

                                                      OF

                      Recovery Act Weatherization Assistance Program

 COMMUNITY ACTION PARTNERSHIP OF SAN BERNARDINO COUNTY



                                           PERFORMED FOR

                               U.S. DEPARTMENT OF ENERGY
                              OFFICE OF INSPECTOR GENERAL



                                                Prepared by

                                      Lopez and Company, LLP

                                  Report Date: December 12, 2012


                            CONTRACT NUMBER: DE-IG0000017

                              WORK ORDER NUMBER: 2011-03




14728 Pipeline Avenue Suite E Chino Hills California 91709
Phone: 626-583-1116 Fax: 626-577-8439 www.lopezllp.com
                                                                                                   Attachment 1 (continued)


                                                      Table of Contents

INDEPENDENT ACCOUNTANT'S REPORT ......................................................................... 1 

Section I Description of Community Action Partnership of San Bernardino County .................... 2 

Section II Classification of Findings............................................................................................... 3 

Section III Summary of Findings.................................................................................................... 4 

Section IV Schedule of Findings .................................................................................................... 5 

Section V Complete Management Response ................................................................................ 12 
             Attachment 1 (continued)




Page 1   Lopez and Company, LLP
                                                                     Attachment 1 (continued)


             Section I Description of Community Action Partnership
                            of San Bernardino County
The Community Action Partnership of San Bernardino County (Agency) operates as a private
non-profit organization. The Agency has been in existence since 1965. It currently receives
grant support primarily from the State of California Department of Community Services and
Development (State) for participation in the Weatherization Assistance Program (Weatherization
Program) with funds appropriated under the authority of the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

Under the Recovery Act, the State of California received a grant of approximately $186 million
from the U.S. Department of Energy (Department) for the Weatherization Program. The State
allocated about $7.7 million of its grant to the Agency to weatherize 1,931 homes. These funds
were to be expended over a 3-year period ending September 30, 2012. Under the Weatherization
Program, low-income homeowners and renters received assistance to increase the energy
efficiency of their homes by sealing duct systems and by installing insulation, cooling and
heating systems, and energy efficient windows and doors.




                                            Page 2                  Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                           Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency, or combination
of significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
record, process, or report data reliably in accordance with the applicable criteria or framework
such that there is more than a remote likelihood that a misstatement of the subject matter that is
more than inconsequential will not be prevented or detected. No significant deficiencies were
noted in this report.

Advisory Comment
For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Agency's ability to record, process, summarize, and
report data reliably.
The advisory comment presented in this section represents a matter that came to our attention
during the course of the review and is offered to the Agency's management as an opportunity for
improvement. The advisory comment is provided along with a recommendation and discussion
of the significance of the comment.




                                              Page 3                     Lopez and Company, LLP
                                                                     Attachment 1 (continued)


                             Section III Summary of Findings



Area/Finding


      Material Weakness
Costs Incurred
      IV.1       Un-billed Labor Hours
Quality of Work
      IV.2       Poor Quality of Weatherization Work
Questioned Costs
      IV.3       Vehicles Used on Non-Recovery Act Related Weatherization Program Activities
      Advisory Comment
Procurement
      IV.4       Sole Source Procurements Not Justified




                                                Page 4                  Lopez and Company, LLP
                                                                        Attachment 1 (continued)


                            Section IV Schedule of Findings

COSTS INCURRED


IV.1   Un-billed Labor Hours (Material Weakness)
Condition
The Agency did not accurately request reimbursement for weatherization work. During our
review, we noted the Agency consistently billed labor hours for only one of the two
crewmembers comprising a weatherization team. The Agency had three weatherization teams
and three appliance replacement teams; each team recorded the number of hours the team (as a
whole) spent on the job on a single timesheet, rather than the total number of labor hours
incurred by individual team members. The hours reported on the timesheet, and ultimately
reimbursed by the State, represented the time elapsed on the jobsite. For example, if a crew
consisting of two individuals had worked three hours on a project, the Agency would have billed
three hours rather than six.
Our review of four completed homes indicated the under-billing totaled $1,760. Based on a
review of certified payrolls, we noted that the Agency paid its crewmembers correctly and in
accordance with Davis-Bacon Act requirements. However, these certified payrolls were
maintained separately than the timesheets used to support reimbursement requests.
Cause
The Agency's policies and procedures did not clearly state that labor hours incurred for each
crewmember should be recorded, reported, and billed to the project. In addition, the Agency
lacked a process to reconcile actual labor hours incurred to hours billed to ensure accurate
reimbursements.
Agency officials stated they have already made adjustments to remedy the issues we identified.
For example, Agency officials informed us that crewmembers now use independent timecards to
help ensure all labor hours are accurately reported. It should be noted that this issue was also
identified by the State as a result of an on-site monitoring visit to the Agency in July 2011.
Effect
Reporting labor hours that the crew incurred as a unit and not the total hours of all of the
crewmembers indicates a lack of controls over billing that resulted in lost revenue for the
Agency. However, because of the examination, an Agency official told us that they had
identified the previously unbilled labor hours and were subsequently reimbursed by the State.
Recommendation
We recommend that the Agency:
1.1    Continue to use individual timesheets for each crewmember to ensure requests for
       reimbursements reflect actual labor hours; and,
1.2    Develop: 1) policies and procedures to ensure all labor hours are recorded, reported, and
       billed; and, 2) a reconciliation process to verify that reimbursements for future labor
       hours are accurate.



                                         Page 5                    Lopez and Company, LLP
                                                                        Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

Management Response
The Agency concurred with the finding and recommendations and reported that it has taken
immediate corrective actions to remedy the weaknesses identified in our examination. In
addition to requiring each crewmember to complete individual timesheets, as noted in our report,
supervisors are also overseeing their employees more closely to ensure all labor hours are
reported, recorded, and billed. Further, the Agency noted it has implemented a procedure to
reconcile the payroll system to the file tracking and billing systems to ensure reimbursements for
labor hours are accurate.

We consider the Agency's management response to be adequate.




                                         Page 6                    Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

QUALITY OF WORK


IV.2   Poor Quality of Weatherization Work (Material Weakness)
Condition
Weatherization work was not performed to workmanship standards established by the
Department and the State. As part of our review, we accompanied the State on its re-inspection
of five completed units. The State inspector reported that four of the units failed re-inspection,
even though all of these units had previously passed a final inspection performed by the Agency.

The following deficiencies were reported:
      Weatherization work was performed on a home where an attic furnace was not accessible
       for the Agency's crewmembers to inspect for potential hazards. According to the State's
       Weatherization Inspection Standards, gas appliances must pass combustion safety testing
       before infiltration-reduction measures can be installed, including major leak repairs in
       doors and windows. However, in this case, a door was installed which violated the
       State's weatherization standards.

      The second home failed because lead paint was not properly removed or contained during
       installation of weatherization measures, windows were improperly installed, electrical
       plates were missing or did not have the required weatherization seal, and the ground lines
       for the refrigerator and swamp cooler were not installed to code.

      On the third unit, an existing hole in the ceiling was not identified in the pre-inspection
       and was not repaired. In addition, the water heater identified for replacement was not
       replaced. Further, at the time of our inspection, the Agency noted that the home needed
       initial repairs for health and safety purposes, which should have been performed before
       weatherization services were offered. The health and safety issue identified was a
       missing seal to the oven which would have caused a failed carbon dioxide test.

      The fourth unit failed because a hole in the drywall was not repaired and caulking was
       not properly applied around a swamp cooler.

An Agency official subsequently informed us that the workmanship deficiencies we observed
were corrected and that increased efforts have been made to ensure all weatherization work is
performed according to standards. Because of the corrective actions taken by the Agency, we
are not questioning the costs associated with the workmanship deficiencies we observed.

Cause
These deficiencies in workmanship occurred because the Agency failed to adequately monitor
and review the level of work performed by its weatherization crews and inspectors to ensure
weatherization efforts were conducted in accordance with Department and State requirements.



                                         Page 7                     Lopez and Company, LLP
                                                                        Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

An Agency official also told us that the rapid expansion of the Recovery Act prevented the normal
learning curve for new employees and created challenges to ensure they were adequately trained.
Effect
These failures created the risk that weatherization work was not performed in accordance with
Federal and State requirements; and therefore, the costs incurred may be unallowable or
additional costs could be incurred to remedy poor workmanship. In addition, there is an
increased risk that homeowners did not receive the full benefits of the weatherization services
rendered.
Recommendation
We recommend that the Agency:
2.1    Ensure all crewmembers and inspectors are properly monitored to ensure weatherization
       work and inspections are performed to standards;
2.2    Ensure all crewmembers and inspectors are properly trained on Federal and State
       weatherization requirements; and,
2.3    Take action, where necessary, on crewmember and inspectors who fail to meet quality
       standards.

Management Response
The Agency concurred with the finding and recommendations. Additionally, as noted in our
report, the Agency reported that it took immediate corrective actions to remedy the deficiencies
on the four units identified in our examination. Further, the Agency has assigned a Program
Compliance Coordinator to keep current on all contract requirements, ensure staff receives
appropriate training, and ensure Field Supervisors are monitoring and evaluating crewmembers’
work against standards. Poor performing crewmembers and inspectors are subject to disciplinary
action in accordance with Agency policy.

We consider the Agency's management response to be adequate.




                                         Page 8                     Lopez and Company, LLP
                                                                       Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

QUESTIONED COSTS


IV.3   Vehicles Used on Non-Recovery Act Related Weatherization Program Activities
       (Material Weakness)
Condition
We found that 13 of the 15 vehicles purchased with Weatherization Program funds provided by
the Recovery Act, were not used primarily for Recovery Act related weatherization activities as
required. Instead, the 13 vehicles were mainly used in support of other federally-funded or non-
federally funded weatherization activities. The 21 crewmembers that were assigned to work on
Recovery Act related weatherization activities should have been given primary access to those
vehicles, however, almost all were assigned existing, less efficient vehicles to perform their
duties, while the crewmembers tasked with working on other federal and non-federal
weatherization activities received the newer vehicles. In addition, the Agency did not charge a
usage fee during the times these vehicles were on loan as required by Federal regulations.

Federal Financial Assistance Regulations (10 CFR 600.134) and Office of Management and
Budget Circular A-110.34 require equipment to be used for the project or program for which it
was acquired as long as needed. Equipment can be used on other projects or programs; however,
preference for such other use shall be given first to other projects sponsored by the Department,
and second, for activities funded by other Federal agencies. Federally purchased equipment may
be made available for use on non-federally funded programs; however, a usage fee is required.
Cause
This occurred because the Agency was not aware of the requirement to use the vehicles
according to the project or program for which they were acquired. Specifically, the Agency was
not aware that vehicles purchased with Recovery Act funds were to be used primarily in support
of the Recovery Act funded Weatherization Program, and not on other federally-funded or non-
federally funded weatherization activities. In addition, the Weatherization Program Manager
stated that no process was established for assigning vehicles although some consideration was
given to the seniority of crewmembers.
Effect
Based on the Agency's decision to use the 13 vehicles acquired with Recovery Act
Weatherization Program funds for non-Weatherization Program related activities, we question
$393,300 (purchase price of the 13 vehicles). Additionally, the Agency's assignment of the
existing (older) vehicles to the Weatherization Program may have resulted in excess maintenance
costs incurred to the Program when compared to similar costs associated with newer vehicles.
However, we were unable to determine the cost impact of using the older vehicles.
Recommendation
We recommend that the Agency either:
3.1    Reimburse the cost of the 13 vehicles to the State; or,




                                         Page 9                    Lopez and Company, LLP
                                                                    Attachment 1 (continued)


                      Section IV Schedule of Findings (Cont.)

3.2   Develop an allocation methodology and reimburse the State for costs associated with
      vehicle use on non-federally funded programs.

Management Response
The Agency concurred with the finding and will implement recommendation 3.2. The Agency
will also develop a cost methodology for vehicle usage and reimburse the State for costs
associated with the use of Recovery Act vehicles on non-federally funded programs.

We consider the Agency's management response to be adequate.




                                          Page 10                   Lopez and Company, LLP
                                                                        Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

PROCUREMENT

IV.4   Sole Source Procurements Not Justified (Advisory Comment)

Condition
Our review of three sole source procurement files found that two of the files did not contain
adequate justification for the awards. The awards were made to a crane service and a glass and
window company in the amounts of up to $7,200 and $2,600 respectively. The Agency's
procurement policies and procedures require adequate justification for sole source procurements,
and Federal regulations such as 10 CFR 600.145, require a cost or price analysis in connection
with every procurement action.
The Agency informed us that based on prior experience the vendors selected through the two
sole source procurements were the only providers of those particular services in the areas where
work was required. For example, the Agency told us that there was only one vendor in the area
who could perform the crane service required to lift air conditioning units on top of clients'
homes.
Cause
The Agency's procurement official, who approved a blanket purchase order for the procurements,
did not review all pertinent information or ensure that sole source justifications were documented
as required.
Effect
In the absence of documentation justifying the reasons for sole source procurements, the agency
cannot be assured it obtained the best price.
Recommendation
We recommend that the Agency comply with its policies and procedures and include proper
justification for the award of any sole source procurement.

Management Response
The Agency concurred with the finding and the recommendation and reported that it will ensure
full compliance with its own accounting policies and procedures. Further, the Agency stated it
disseminated State-issued procurement guidance to its staff for review and compliance.

We consider the Agency's management response to be adequate.




                                         Page 11                    Lopez and Company, LLP
                                   Attachment 1 (continued)



Section V Complete Management Response




                Page 12            Lopez and Company, LLP
                                       Attachment 1 (continued)



Section V Complete Management Response (Cont.)




                    Page 13            Lopez and Company, LLP
                      Attachment 2


DEPARTMENT COMMENTS




     Page 14
          Attachment 2 (continued)




Page 15
          Attachment 2 (continued)




Page 16
                               Attachment 3



STATE OF CALIFORNIA COMMENTS




         Page 17
          Attachment 3 (continued)




Page 18
                                                                 IG Report No. OAS-RA-13-17



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form.
